HHS/OIG-Audit--"Review of Clinical Laboratory Services Provided Under the Kansas Medicaid Program, (A-07-95-01147)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Clinical Laboratory Services Provided Under the Kansas Medicaid
Program," (A-07-95-01147)
October 17, 1995
Complete Text of Report is available in PDF format
(1.52 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Clinical Laboratory
services Provided Under the Kansas Medicaid Program. Medicaid providers received
excess reimbursement estimated at $344,254 (Federal share $202,766) during calendar
years 1993 and 1994 for clinical laboratory services that were unbundled (not
grouped for payment) or duplicated. The State did not have adequate procedures
to prevent paying for unbundled or duplicate laboratory services. We recommended
the State (1) install edits to prevent payments for unbundled or duplicate services;
(2) instruct providers on bundling requirements; (3) identify and recover 1993
and 1994 overpayments from providers; and (4) return the Federal share of recovered
overpayments to the Health Care Financing Administration (HCFA). We estimate
that the state could save $172, 127 (Federal share $101,383) annually or about
$860,635 over a 5-year period by implementing bundling and duplicate edit procedures.